No. 20-659

 

 

IN THE

Supreme Court of the United States

LARRY THOMPSON,

Petitioner,
v.

PAGIEL CLARK, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

BRIEF OF NATIONAL, STATE, AND LOCAL
CIVIL RIGHTS, RACIAL JUSTICE, AND
CRIMINAL DEFENSE ORGANIZATIONS
AS AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,778 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 4, 2021.

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
